HHS/OIG, Audit - "Audit of Pathology Laboratory Services Claimed by
Atlantic Urological Associates, P.A. for Calendar Year 2004," (A-04-05-03002)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Pathology Laboratory
Services Claimed by Atlantic Urological Associates, P.A. for Calendar Year 2004," (A-04-05-03002)
June 28, 2007
Complete
Text of Report is available in PDF format (551 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit objective was to (1) determine whether Atlantic
Urological Associates, P.A. (the Practice) claimed reimbursement for pathology
laboratory services in accordance with Medicare Part B requirements during
calendar year 2004 and (2) analyze the Practice's utilization patterns for
pathology services.  The Practices claims for pathology
laboratory services generally complied with Medicare Part B requirements.  We
noted an increase in the number of pathology services requested and performed
after the Practice contracted with a laboratory management company, which
increased costs to the Medicare program.  However, the
Practice explained that the increased number of tissue examination requests were
an attempt to more fully meet the needs of its patients.  The audit report
did not contain any recommendations for the Practice.